                    America the Beautiful


    FEDERAL LABOR RELATIONS AUTHORITY
               OFFICE OF INSPECTOR GENERAL


                    35th SEMIANNUAL REPORT
                       TO THE CONGRESS




                       October 1, 2005
                            through
                        March 31, 2006

Date Issued: June 1, 2006
                          EXECUTIVE SUMMARY
This is the 35th Semi-Annual report issued by the Office of the Inspector General (OIG)
at the Federal Labor Relations Authority (FLRA). This report, submitted pursuant to
section 5 of the Inspector General Act, summarizes the major activities and
accomplishments of the FLRA Inspector General for the period of October 1, 2005 to
March 31, 2006.

During this reporting period, the FLRA Office of the Inspector General completed the FY
2005 Financial Statement Audit, processed 9 hotline calls and completed an extensive
investigation of a complaint filed in August 2005 by an FLRA employee. The Financial
Statement Audit included a review of 2004 findings and recommendations as well as
several additional findings and recommendations, which were indicated in the Inspector
General’s FY 2005 FISMA Review.

During this reporting period, the Office of Personnel Management conducted a review of
FLRA’s Human Resources relating to OPM’s Enterprise Human Resources Initiatives
and E-Government. FLRA management has contracted two consulting groups who are
assisting the FLRA in complying with provisions of the President’s Management Agenda
relating to Strategic Management of Human Capital as well as job classifications,
performance management, and E-Government requirements for developing digitized
copies of each employee’s Official Personnel Folder.

During this reporting period, the FLRA Inspector General continued with the extensive
internal review of FLRA’s Administrative Policies and updated all FLRA Inspector
General policies to ensure compliance with current Inspector General requirements.

On March 7, 2006, the FLRA Inspector General provided FLRA management a list of
opened oversight findings and recommendations for corrective actions from 1998 to the
current time and requested management's response regarding the projected time these
corrective actions would be implemented. The FLRA Executive Director began to
address several corrective actions, which related to administrative issues that have
changed.

During this reporting period, FLRA management has addressed several previous
oversight findings and created improvement of the efficiency and effectiveness of
several administrative programs including time and attendance, information security and
human capital issues related to positions and the cost effectiveness of FLRA’s entire
staff.




                                35th Semi Annual Report
                                      Page 2 of 63
                  THE FEDERAL LABOR RELATIONS AUTHORITY

The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees worldwide, nearly 1.1 million of
who are exclusively represented in approximately 2,200 bargaining units. The FLRA is
charged by the Federal Service Labor-Management Relations (The Statute), section
7105, with providing leadership in establishing policies and guidance relating to Federal
sector labor-management relations, resolving disputes arising among Federal agencies
and unions representing Federal employees, and ensuring compliance with the Statute.

The FLRA represents the Federal government’s consolidated approach to labor-
management relations. The FLRA is “three components in one,” fulfilling legal statutory
responsibilities through the Authority, the Office of General Counsel and the Federal
Service Impasses Panel. The FLRA has 7 regional offices and one satellite office. The
FLRA also provides staff support to two other organizations – the Foreign Service
Impasses Disputes Panel and the Foreign Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed
for 5-year terms by the President, with the advice and consent of the Senate. One
member is appointed by the President to serve as Chairman of the Authority and as
Chief Executive and Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases concerning
the negotiability of collective bargaining agreement proposals, unfair labor practice
(ULP) allegations, representation petitions, and exceptions to grievance arbitration
awards. In addition, consistent with its statutory responsibility to provide leadership in
establishing policies and guidance to participants in the Federal labor-management
relations program, and as part of the Collaboration and Alternative Dispute Resolution
(CADR) Program described below, the Authority assists Federal agencies and unions in
understanding their rights and responsibilities under the Statute and resolving their
disputes through interest-based problem-solving rather than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also
houses the Office of Administrative Law Judges, the Collaboration and Alternative
Dispute Resolution Office, the Office of the Solicitor, the Office of the Executive
Director, and the Office of the Inspector General.

Office of the Administrative Law Judges: The FLRA’s Administrative Law Judges
(ALJ’s) are appointed by the Authority to conduct due process hearings in accordance
with the Administrative Procedures Act and issue recommended decisions in cases
involving alleged unfair labor practices. ALJ’s also conduct hearings and issue
recommended decisions involving applications for attorney fees and files pursuant to
the Back Pay Act or the Equal Access to Justice Act. In the course of their duties, ALJ’s
conduct pre-hearing conferences, issue subpoenas, rule on motions and evidentiary
issues, and engage in settlement efforts. An ALJ decision may be affirmed, modified, or
reversed, in whole or in part, by the Authority. If no exceptions are filed to an ALJ

                                 35th Semi Annual Report
                                       Page 3 of 63
decision, the decision is adopted by the Authority and becomes final and binding upon
the parties.

Office of Policy, Project & Performance Management: The Office of Policy, Project
& Performance Management is responsible for agency-wide strategic policy and
planning, including the role of Chief Human Capital Officer. The office also provides
oversight with respect to FLRA performance management initiatives. The office drafts,
reviews, and approves all agency-wide instructions and policies; oversees the
Chairman’s and the Administration’s initiatives; and develops agency-wide initiatives,
which upon the Chairman’s final approval, are implemented through the Office of the
Executive Director. The office also houses the agency’s congressional affairs function
and serves as the Chairman’s primary point of contact with the Solicitor, Executive
Director, EEO Director, and Inspector General.

Collaboration and Alternative Dispute Resolution (CADR) Office: The CADR Office
is responsible for coordinating, supporting, and expanding the unified CADR Program.
This program involves a variety of collaboration and alternative dispute resolution
techniques at all steps of the process, from investigation and prosecution to the
adjudication of cases and resolution of bargaining impasses. The CADR Program also
provides facilitation and training programs to assist labor and management in
developing constructive approaches to conducting their relationship.

Office of the Solicitor: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S.
Courts of Appeals, and Federal District Courts. The office serves as the agency’s in-
house counsel, providing legal advice to all FLRA components. The Solicitor is also the
Designated Agency Ethics Officers under the Ethics in Government Act of 1978, as
amended.

Office of the Executive Director: The Office of the Executive Director provides
operational support to all components of the FLRA, including budget and finance,
human resources, procurement, administrative services, and information resources
management and is responsible for developing and implementing agency-wide
initiatives, such as strategic planning.

Office of the Inspector General: The Office of the Inspector General (OIG) is
responsible for directing and carrying out audits and investigations related to the FLRA
programs and operations. In addition, the Inspector General is authorized to create and
recommend policies that promote economic, efficient, and effective agency programs,
which prevent fraud, waste, abuse and mismanagement. The Inspector General is
responsible for keeping the Chairman, FLRA and the Congress fully informed of
problems and deficiencies, as well as, the necessity for corrective actions. Public Law
100-504 and the Inspector General Act, as amended, mandate the requirements,
objectivity and independence of Federal Agency Inspectors General.



                                35th Semi Annual Report
                                      Page 4 of 63
The Office of the General Counsel: The Office of the General Counsel (OGC) is a
component of the FLRA. The General Counsel, who is appointed by the President with
the advice and consent of the Senate for a 5-year term, manages all OGC employees.
The OGC includes seven regional offices located in Atlanta, Boston, Chicago, Dallas,
Denver, San Francisco, and Washington, DC and one remote duty location in Brea,
California. The OGC investigates all unfair labor practice charges filed either by an
employee, a labor union or a federal agency and prosecutes all unfair labor practice
complaints before the Authority. The OGC is also responsible for receiving and
processing representation petitions and providing education services to the parties. The
General Counsel reviews all appeals of a Regional Director’s decision to dismiss an
unfair labor practice charge and establishes case-handling policies and procedures for
the OGC.


The Federal Service Impasses Panel: The Federal Service Impasses Panel (FSIP or
the Panel) is composed of seven part-time Members who are appointed by the
President to serve for a 5-year term. One Member is appointed by the President to
serve as the Panel Chair. The Panel resolves bargaining impasses between Federal
agencies and unions representing Federal employees arising from negotiations over
conditions of employment under the Statute and the Federal Employees Flexible and
Compressed Work Schedules Act. If bargaining between the parties, followed by
mediation assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor Relations
Board, (the Board) was created by the Foreign Service Act of 1980 to administer the
Labor-Management Relations Program for Foreign Service employees in the U.S.
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture and Commerce. The Board is composed of three Members, including
the Chairman of the Authority who appoints the other two Members, who serve on a
part-time basis. The Chairman of the Authority also serves as Chairman of the Board.
The FLRA General Counsel acts as General Counsel for the Board, and the Authority
staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service Act of
1980. The Disputes Panel is composed of five part-time Members who are appointed
by the Chairman of the Foreign Service Labor Relations Board (the FLRA Chair). The
Disputes Panel resolves bargaining impasses between Federal agencies and Foreign
Service personnel in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture, and Commerce, over
conditions of employment under the Foreign Service Act of 1980. The FSIP staff
supports the Disputes Panel.




                                35th Semi Annual Report
                                      Page 5 of 63
The FLRA's headquarters is located in Washington, D.C. The FLRA maintains regional
offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington,
D.C.

FLRA MISSION STATEMENT

The Federal Labor Relations Authority exercises leadership under the Federal Service
Labor-Management Relations Statute to promote stable, constructive labor relations
that contribute to a more effective Government.

The mission of the FLRA is to carry out five primary statutory responsibilities as
efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Statute.

Under the Statute, the primary responsibilities of the FLRA include:

   •   Determining the appropriateness of units for labor organization representation;
   •   Adjudicating exceptions to arbitrator's awards;
   •   Resolving complaints of unfair labor practices; and
   •   Resolving impasses and issues relating to the duty to bargain.

OFFICE OF INSPECTOR GENERAL

   •   Conducts and supervises internal reviews, audits and evaluations of the
       programs and operations of the FLRA;

   •   Provides leadership and coordination, and recommends actions to management,
       which: (1) promote economy, efficiency, and effectiveness in agency programs
       and operations; and (2) prevent and detect fraud, waste, abuse, and
       mismanagement of government resources; and

   •   Keeps the Chairman, FLRA management, and the Congress fully informed
       regarding problems and deficiencies, and the progress of corrective action.

The Inspector General’s Office is currently staffed with one full time Inspector General
and one full time Administrative Assistant. When required, the FLRA Inspector General
uses contractor auditors to perform FLRA audits. The Office of the Inspector General's
FY 2005 budget was $77,500.00. The FLRA, Inspector General submitted a request for
an increase in operational funding in the FLRA Office of Inspector General FY 2005
budget submission. The FY 2006 budget allocation has not yet been provided to the
Inspector General who has requested it several times but has received no response.

OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership,
along with an independent and objective assessment of the organization’s efficiency

                                 35th Semi Annual Report
                                       Page 6 of 63
and effectiveness. This is accomplished through proactive evaluations of FLRA
operational processes. The Inspector General provides necessary oversight and serves
as a catalyst for improving and maximizing the efficiency and integrity of FLRA
programs and operations. The goal of the Inspector General's work is to maximize the
effectiveness of FLRA programs by evaluating performance and identifying ways to
make these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and mismanagement of the
FLRA’s resources and operations, which could adversely impact the organization’s
integrity and ability to perform its mission in a timely, customer responsive manner.

The primary objectives of the Office of Inspector General are as follows:

   •   To evaluate the efficiency and effectiveness of FLRA program and resource
       management and identify best practices, as well as causative factors, impeding
       the accomplishment of the FLRA mission.
   •   To assist the Chairman and FLRA management in carrying out their
       responsibilities by providing them with objectives and timely information on the
       conduct of FLRA operations, together with the Inspector General’s independent
       analysis, conclusions, and recommendations.
   •   To use evaluations, internal reviews, and more traditional assessment tools of
       audits, inspections, and investigations, to maximize oversight and strengthen
       system and process controls.
   •   To support the Administration and Congress in maximizing Government integrity
       and efficiency and minimizing the occurrence of fraud, waste, abuse, and
       mismanagement.

AUDIT/INTERNAL REVIEW ACTIVITY

During this reporting period the FLRA Office of the Inspector General performed the
following audits and reviews in compliance with Government auditing standards:

Audit of 2005 FLRA Financial Statements                                     Completed

The Final Report was issued shortly after this reporting period.

During this reporting period, the Office of the Inspector General contracted the second
audit of FLRA's compliance with Financial Statements, which were implemented in
2004. This audit includes the review of FLRA's balance sheet and the related
statements of net cost, changes in net positions budgetary resources and financing for
fiscal year 2005. This audit includes a comprehensive review of FLRA internal controls
and risk assessments related to management of the FLRA’s financial statements. The
audit included a review of and update of the findings and recommendations from the
FLRA’s 2004 Financial Statement Audit, most of which have not yet been corrected.
The 2005 Financial Statement Audit has revealed several findings relating to non
compliance with the Federal Information Security Management Act (FISMA), the lack of
establishment of a qualified Chief Financial Officer, the lack of updating FLRA policies

                                 35th Semi Annual Report
                                       Page 7 of 63
and procedures in accordance with current laws and regulations, and insufficient focus
to ensure continuity of operations by having better support providers and services, and
better back up training and knowledge for FLRA employees. The audit also determined
that FLRA needed to designate its best system source for its overall accounting,
budgetary and financial needs, maintain detailed fixed asset records and reconcile
records to the General Ledger in a timely manner.

The audit also recommended that management address cash disbursement
procedures, accounts payable procedures and internal controls to improve the system
of fiscal and accounting management, ensure that proper procurement policy and
processes between the Divisions of Budget and Finance and Administrative Services
exist and are properly followed, and ensure that information needed for each quarter
includes updated information related to accrued leave, liabilities of updating the Federal
Employee’s Compensation Act (FECA) and Future Workers Compensation, fair
statements of the financial position and the results of operations. Formal collection
procedures need to be established, lease agreements need to be reviewed for existing
occupied and used spaces, procedures related to reviewing manual adjusting journal
entries need to be established prior to entering the system, and management needs to
address whether alternative summary level information can be posted to the general
ledger for payroll interface.

Although the audit has been completed, the 2005 Financial Statement Report was not
issued during this reporting period because some needed information requested by the
auditors regarding some issues had not been provided by March 31, 2005.

Internal Review of FLRA Administrative Policy                                Open

During this reporting period the FLRA Inspector General began an extensive review of
all FLRA policy, which included an initial review of related laws and legislation as well as
the FLRA policy. This review revealed that in 2002, a significant amount of policy was
cancelled but has not been re-created. This review is affirming that an extensive
amount of FLRA’s administrative policy requires immediate updates or revisions.
Comments on what should be incorporated in the updated instructions will be provided
to FLRA management as part of the conclusion of this review.

FLRA Management Consultations                                                Current

In order to comply with some of the provisions of the President’s Management Agenda
relating to Human Capital and guidelines issued by the Office of Personnel
Management and the Office of Management and Budget relating to job classification
and performance management, FLRA contracted two consulting groups to assist the
FLRA with related Human Capital projects. One effort involved the review and
conversion of FLRA’s Official Personnel Folders, which will be replaced with an
Electronic Employee Record. The second project is a follow-up to last year’s
Classification Project and will include a comprehensive review of labor management
case work to establish the level of work performed, identify any duplications of effort and

                                  35th Semi Annual Report
                                        Page 8 of 63
identify the distinction of work performed.   These consultants will also review
management and supervisory oversight of FLRA attorneys and labor relations
specialists (GS-0905 and GS-0244) who conduct labor management case processing
and will create or revise position descriptions related to these employees, as
appropriate.

Office of Personnel Management (OPM) Review                                Closed
Of FLRA Human Resources Delegated Examining
Operations

During this reporting period, OPM conducted an audit focused on the accountability of
human resources delegated examining operations, and those human resource
authorities that relate to the three key systems of Human Capital Management (talent,
leadership and (knowledge management and results-oriented performance culture) to
evaluate how well these programs contribute to mission accomplishments.

This audit included a review of FLRA’s Human Resource records and both individual
and group employee interviews.

According to OPM, this FLRA audit report has been prepared and completed and
should be issued shortly.

FLRA Inspector General Policies

During this reporting period, the FLRA Inspector General reviewed and updated the
following Inspector General policies, which were created in 1998 and 1999.

   •   FLRA 2930.2 Audit and Internal Review Follow-Up
   •   FLRA 2920.1 Audit Policies and Procedures
   •   FLRA 6120.1 Fraud Prevention Problem
   •   FLRA 6130.1 Inspector General Assistance and Hotline
   •   Program
   •   FLRA 6110.1 Policies and Procedures for Conducting
   •   Investigations by the Office of the Inspector General

ADDITIONAL ACTIVITIES

Training

During this reporting period, the FLRA Inspector General attended the following training:

   •   Contracting/COTR Update
   •   Word 2003/2006 Update
   •   Government Executive


                                 35th Semi Annual Report
                                       Page 9 of 63
   •   Pay and Performance
   •   Risk Management
   •   State of Defense

Executive Counsel of Integrity and Efficiency (ECIE)

The FLRA Inspector General attends the ECIE monthly meetings on a regular basis to
make sure that the FLRA Office of Inspector General is current and aware of operations
and issues related to ECIE Inspectors General.

Review of Regulations
During this reporting period, the FLRA Inspector General reviewed:

       --All FLRA Office of Inspector General instructions
       --45 FLRA Instructions
       --PCIE/ECIE General Plan and Oversight Program for Financial Statement Audits

Oversight Corrective Actions

The FLRA Office of the Inspector General findings and recommendations from 1998 to
the present were submitted to FLRA management during this reporting period.
Management was asked to provide information to the FLRA Inspector General
regarding management actions related to addressing the oversight activities’ findings
and recommendations, which have been open from l998 to the present. The new
appointed FLRA Executive Director has begun to review the findings and corrective
actions and has responded to the Inspector General regarding several findings related
to programs and operations, which have changed. As indicated in the 2005 Inspector
General FISMA report, the FLRA Chief Information Officer/Acting Director of Information
Resource Management has addressed many of the FLRA’s information security
corrective actions. New information technology policies have been submitted to FLRA
management for approval, which must be made before they can be implemented.

Security Issues

During this reporting period, the FLRA had one security incident involving the theft of
three Blackberry models 6570 in a locked office and one non-working older laptop from
an unlocked office where it was being worked on. This incident was reported to the
Federal Protective Service, FLRA management and building management. Building
management reviewed videotapes for suspicious activities but found nothing.




                                35th Semi Annual Report
                                      Page 10 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

     Report No.       Recommendation                   Target                Actual Date Status
     Issued Date                                       Completion
NARA Evaluation of    I/8(a) Develop a self-                                             Open
FLRA                  evaluation records manage-
Section I             ment checklist and distribute.

                        (b) Conduct periodic           Conduct every 3                   Ongoing
                      evaluations.                     years on October 1.

                        (c) Ensure recommend-          Implement every                   Ongoing
                      dations are implemented.         3 years.

Section II            II /1: Ensure that the
                      maintenance of records           Revised target date               Open
                      documenting agency actions,      to 9/30/03.
                      policies and procedures are
                      current and distributed to
                      staff.

                      II/2(a) Review working case      2/30/99.                          Open
                      files retention.


                          (b) Meet with office         Revised target date               Open
                      Directors to develop retention   to 9/30/03.
                      schedules for all records not
                      in current schedule and get
                      recommendations for changes
                      to current schedule.


                         (c) Develop retention         Revised to 9/30/03.               Open
                      schedules for new records
                      and make changes to current
                      schedules.




                                 35th Semi Annual Report
                                       Page 11 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

     Report No.             Recommendation                    Target         Actual Date   Status
     Issued Date                                            Completion

Section II – cont.       (d) Submit new schedule       Revised to 9/30/03.                 Open
                      for Archivist’s approval.


                         (e) Include approved          Revised to 9/30/03.                 Open
                      schedule in updated instruct-
                      tion 1323.1.

                      II/3: Require offices to         Revised to 9/30/03.                 Open
                      separate temporary and
                      permanent case files.


                      II/4: Ensure that photographs    Revised to 9/30/03.                 Open
                      that are a part of a permanent
                      case file conform to 36 CFR
                      § 1232.


                      II/5: Establish a Vital          Revised to 9/30/03.                 Open
                      Records Program.


                      II/6: Identify vital FLRA        Revised to 9/30/03.                 Open
                      records and enact measures to
                      protect and update them, and
                      ensure their availability
                      during emergencies.
                                                                                           Open
                      II/7: Consider the offsite       Revised to 9/30/03.
                      maintenance/storage of
                      copies of vital records.

Section III           III/1: Identify which FLRA       Revised to 9/30/03.                 Open
                      records are not covered by
                      records schedule or the
                      General Record Schedules.


                                  35th Semi Annual Report
                                        Page 12 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

     Report No.            Recommendation                    Target          Actual Date   Status
     Issued Date                                           Completion

Section III – cont.   Develop and submit to           Revised to 9/30/03.                  Open
                      NARA proposed records
                      schedules for unscheduled
                      records.


Chicago Regional      3. Formalize the creation       Revised target date                  Open
Office                maintenance/disposition of      9/30/03.
                      administrative records to the
                      same extent as program
                      records.

                      4. Offer records management     Revised target date                  Open
                      guidance to staff on            9/30/03.
                      electronic Records
                      Management and FOIA
                      procedures (including E-
                      FOIA amendments).

Management Letter     1. Update all FLRA              Newly established                    Open
4/19/98               delegations of authority,       policy & Planning
Instructions/MOU      memoranda of under-             position will
Update                standing, and instructions to   coordinate/division,
                      reflect current mission.        as appropriate, to
                                                      accomplish
                                                      revisions and up-
                                                      dates on a rolling
                                                      basis.

                      2. Distribute updated policy                                         Open
                      to all managers and make
                      them available to all
                      employees in one central
                      folder on the FLRA website
                      along with updated index.




                                 35th Semi Annual Report
                                       Page 13 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006


    Report No.             Recommendation                    Target         Actual Date     Status
    Issued Date                                            Completion

Ltr. dated: 9/28/99   1. Establish an accountability Revised target date   HR will work     Open
OPM Review of         system to assess management 4/30/00.                 with Human
FLRA Human            utilization of human                                 Capital Office
Resources Program     resources.                                           position,
                                                                           assigned in
                                                                           accordance
                                                                           with OPM
                                                                           guidelines on
                                                                           newly enacted
                                                                           legislation.


                      2. Study quality of             4/30/00.                              Open
                      performance feedback and
                      provide strategies for
                      ensuring sufficient quality
                      performance feedback is
                      provided to employees.
Audit of the FLRA     1. Review and enhance the
FY 98 Financial       FLRA Accounting Manual to                            7/10/06          Closed
Statements and        reflect specific B&FD duties.
Central Services
Fund (Report No.
99-01-
September 1999)




                                 35th Semi Annual Report
                                       Page 14 of 63
Federal Labor Relations Authority
Office of Inspector General
Corrective Actions Status
Fiscal Year 2006

    Report No.             Recommendation                    Target      Actual Date   Status
    Issued Date                                            Completion
                      Review all current personnel     .                               Open
                      files to ensure payroll, leave
                      and benefits information is
                      correct and reconciles that
                      which is maintained by
                      Denver Payroll Operations
                      Division and take appropriate
                      action to reconciliate any
                      overpayments or under
                      payment found. The results
                      of this effort should be
                      specifically reported to the
                      FLRA Inspector General.

Audit of the FLRA     Review, update and revise as                                     Open
FY 98 Financial       necessary, FLRA Regulation
Statements and        2301.1 Financial Manage-
Central Services      ment System to reflect
Fund                  contemporary policy,
                      including a requirement for a
                      documented yearly review of
                      financial management
                      statements by the Executive
                      Director and audits of
                      financial statements by an
                      independent source on a
                      yearly basis.

Internal Review of    1. Create centralized            Management does                 Open
FLRA External         Administrative Tracking          not concur that
Affairs May 2000      System.                          Agency needs a
                                                       centralized
                                                       administrative
                                                       tracking system




                                 35th Semi Annual Report
                                       Page 15 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006


    Report No.             Recommendation                   Target      Actual Date   Status
    Issued Date                                           Completion

                      2. Develop/implement FLRA                                       Open
                      External Affairs Policy.



Internal Review of    1. Create Agency Policy for   .                                 Open
FLRA External         Compliance with the
Affairs May 2000      Paperwork Reduction Act



Investigation         1. Create Agency Policy for   .                                 Open
2000-I-30             compliance with the
August 2000           Paperwork Reduction Act.


FLRA Information      1. Fund, develop and                             06/27/05       Closed
System Security       implement an information
Audit 2001            security program that
                      complies with OMB Circulars
                      A-123, A-127 and A-130.

                      2. Establish security
                      awareness program training                       07/05/05       Closed
                      that all employees must
                      attend annually.

                      3. Establish senior
                      management oversight                             07/05/05       Closed
                      committee to demonstrate
                      senior management’s
                      commitment to and support
                      of an effective, efficient
                      security Program.




                                35th Semi Annual Report
                                      Page 16 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

    Report No.             Recommendation                    Target     Actual Date   Status
    Issued Date                                            Completion
                      4. Delegate authority to
                      IRMD that clearly assigns                         06/27/05      Closed
                      responsibilities duties and
                      requirements; coordinate
                      information security control
                      with systems outside IRMD
                      and assists/control with other
                      program offices during
                      development and
                      implementation of new
                      systems and enhancements to
                      existing systems



                      5. Revise current instructions                    06/27/05      Closed
                      for HRD and BFD to include
                      security administration
                      responsibilities for respective
                      system and require
                      coordination with IRMD.

                      6. Ensure that system owners                      09/03/02     Closed
                      and program offices perform                       *Note:
                      periodic risk and vulnerability                   Periodic
                      assessments and certify                           risks and
                      systems.                                          vulnera-
                                                                        bility
                                                                        assessment
                                                                        conducted
                                                                        yearly since
                                                                        September
                                                                        2002.




                                 35th Semi Annual Report
                                       Page 17 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
     Report No.               Recommendation               Target     Actual Date   Status
     Issued Date                                         Completion
                        7. Ensure procedures are                      9/30/02       Closed
                        established to monitor/report
                        FLRA’s progress in resolving
                        weaknesses and developing
                        an efficient/effective
                        information system security
                        system

                        8. Develop & establish                        06/27/05      Closed
                        agency-wide information
                        security policy through the
                        consolidation of existing
                        instructions.

                        9. Centralize management                      6/27/05       Closed
                        responsibilities for
                        development of security
                        policy procedures and
                        practices, but retain daily
                        security administration with
                        program offices.

                        10. Conduct an agency-wide                     9/30/02     Closed
                        assessment of information                     Note:
                        contained within various                      Information
                        systems to identify/classify                  will be re-
                        the sensitivity of information                assessed
                        and the security level needed.                this year to
                                                                      ensure com-
                        11. Obtain new software to                    pliance with
                        monitor eternal access to the                  new NIST
                        network and alert IRMD                        Publication
                        security personnel of                         53 in egards
                        suspicious activities.                         to internal
                                                                      controls
                                                                      (low, high,
                                                                      medium)
                                                                      outlined in
                                                                      FIPS 199.
                                                                      12/31/05


                                   35th Semi Annual Report
                                         Page 18 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006


    Report No.             Recommendation                     Target     Actual Date   Status
    Issued Date                                             Completion

                      12. Develop procedures to                          06/27/05      Closed
                      maintain a current inventory
                      of authorized users for each
                      system and for remote access.



                      13. Define rules of behavior      .                Estimated     Open
                      for each system based on                           12/30/05
                      management’s defined level
                      of acceptable risk.


                      14. Develop procedures to                          09/30/02      Closed
                      ensure that security officials,
                      systems, and data owners
                      establish and formalize
                      procedures for granting
                      appropriate access and system
                      privileges.


Fiscal Year 2004      15. Formalize incident                             06/27/05      Closed
Audit of FLRA         response procedures and
Security Progress     processes to identify/report
                      on apparent/actual security
                      breaches. Include
                      instructions on proper
                      procedures for reacting to
                      security breaches in security
                      awareness program.




                                 35th Semi Annual Report
                                       Page 19 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

    Report No.              Recommendation                    Target     Actual Date   Status
    Issued Date                                             Completion

                      16. Develop procedures for                         06/27/05      Closed
                      periodically evaluating user
                      privileges and in granting
                      initial access and privileges to
                      systems software and data.

                      17. Obtain new remote                              1/15/03       Closed
                      access software sufficient to
                      preclude unlimited remote
                      dial in access to FLRA
                      network.

                      18. Dedicate funding to                            6/27/05       Closed
                      identify, review, and evaluate
                      critical business functions for
                      developing a business
                      contingency and recovery
                      plan.

                      19. Document procedures for                        06/27/05      Closed
                      programmers’ access to the
                      production environment and
                      management’s compensating
                      controls to detect
                      unauthorized activities.

                      20. Document the network                           04/16/03      Closed
                      configuration hardware,
                      software, security controls;
                      client server and Oracle
                      databases; and systems
                      security controls.




                                  35th Semi Annual Report
                                        Page 20 of 63
Federal Labor Relations Authority
Office of Inspector General
Corrective Actions Status
Fiscal Year 2006


    Report No.             Recommendation                    Target     Actual Date   Status
    Issued Date                                            Completion
                      21 Develop a System                               07/05/05      Closed
                      Develop Life Cycle
                      Methodology complaint with
                      OMB and NIST requirements
                      for developing new systems
                      and enhancing existing
                      systems.
                      22. Review costs and                              3/17/03       Closed
                      benefits of relocating the
                      computer used for entering
                      and authorizing vendor
                      payments to the Department
                      of Treasury. to a more secure
                      location away from the
                      general work are into an area
                      of limited access.
Internal Review of    1. Refrain from using e-mail
the Office of the     to transmit any type of                           7/10/06       Closed
General Counsel’s     investigation documentation.
ULP Investigation     until software is encrypted
Process- 2/2001       or other appropriate infor-
                      mation security software is
                      installed unless parties are
                      aware of potential disclosure
                      and agree to use the e-mail
                      even though there is the
                      possibility of information
                      disclosure/compromise.

Internal Review of    1. Director, BFD should                                         Open
FLRA’s Travel         prepare overarching general
Program               agency travel policies, which
FY 2001               address requirements,
                      expectations and prohibitions




                                 35th Semi Annual Report
                                       Page 21 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006
     Report No.               Recommendation                   Target     Actual Date   Status
     Issued Date                                             Completion
                       2.Update, revise or cancel                                       Open
                       existing obsolete travel
                       instructions and guidance
                       including:

                        -FLRA travel Guideline
                        Handbook.
                        -Guidance on reimbursable
                        support.

                        3. Ensure that all lists and                                    Open
                        policies that are sent to the
                        National Business Center,
                        National Travel Service, Inc.,
                        and Citibank are current.
                        4. Director, BFD should                                         Open
                        discuss the use of FLRA’s
                        formatted travel reimburse-
                        ment vouchers and address
                        any deficiencies with the
                        Director, IRM.
                        5. FLRA Travel Manager                                          Open
                        should request that National
                        Travel website to
                        accommodate FLRA’s
                        travelers needs and ensure
                        that al FRLA employees are
                        trained to use the website.
Internal Review of      6. Require FLRA travelers to                                    Open
FLRA’s Travel           use Hotel Occupancy tax
Program FY 2001         Elimination Forms while on
                        government travel. Compile
                        list of states that honor and
                        fail to honor such forms and
                        distribute such forms and
                        distribute to FLRA
                        employees.




                                   35th Semi Annual Report
                                         Page 22 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year -2006
    Report No.             Recommendation                    Target     Actual Date   Status
    Issued Date                                            Completion
                      7. Issue memorandum
                      reminding FLRA employees                                        Open
                      that government credit cards
                      are to be used for travel
                      expenses and not for travel
                      expenses and not for personal
                      use.
                      8. Director BFD should work
                      with National Business                                          Open
                      Center to set criteria,
                      standards and policies for
                      ravel reimbursement.
                      1. Conduct a cost benefit                                       Open
Audit of FLRA
                      analysis for automating the
Simplified
                      procurement system and
Acquisitions and
                      implement if cost effective
Imprest Fund
November 2001
                      2. Establish a MOA with an
                      executive Agency to
                      administrate FLRA contract
                      appeals.

                      3 Brief FLRA management
                      on basic federal procurement
                      requirements.



Management Letter 1. Create internal policy                                           Open
Fair Act Compliance (include competition plan) for
                    contracting our commercial
                    activities.
                    2. Annually see management
                    input to validate inherently
                    governmental and
                    commercial activities




                                 35th Semi Annual Report
                                       Page 23 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

    Report No.             Recommendation                    Target        Actual Date   Status
    Issued Date                                            Completion
                                                                                         Open
                      3. Perform cost analysis on
                      positions identified in the FY
                      2002 and future Fair Act
                      submission private sector as
                      well as federal organizations
                      before contracting with
                      federal agencies.

                      4. Include justifications                                          Open
                      retaining defined non-
                      inherently government
                      positions in the FLRA
                      5. Assign future               .
                      responsibility for competitive                                     Open
                      outsourcing including Fair
                      Act Compliance, to the FLRA
                      Contracting Officer.


                      1. Provide Regional Office       5/2002                            Open
                      Personnel contemporary           Proposed Action
                      training in customer service,    Plan to implement
                      communication, behavioral        Investigation
                      and other pertinent human        findings deferred
                      capital training.                by Chairman,
                                                       FLRA.

                      2. Provide Atlanta Regional                                        Open
                      Office employees training on
                      federal, FLRA and OGC
                      administrative requirements
                      including employee rights
                      and responsibilities




                                 35th Semi Annual Report
                                       Page 24 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.              Recommendation                         Target     Actual Date Status
Issued Date                                                  Completion
                        3. Provide new Atlanta                                        Open
                        Regional Office employees
                        with on site training on OGC
                        unfair labor practice charge
                        and representation case
                        processing policies.

                        5. Obtain qualified person to                                 Open
                        perform a Myers Briggs
                        Analysis and use this analysis
                        for employees to understand
                        behavioral interactions,
                        perceptions and reactions.

Investigation 2002-I-   6. Have Director, Atlanta                                     Open
33                      Regional Office document
                        and discuss all new internal
                        procedures and expectations
                        and distribute to all
                        employees.

                                                                                      Open
                        7. Have Director, Atlanta
                        Regional Office document all
                        individual and staff
                        counseling.
                                                                                      Open
                        8. Have Director, Atlanta
                        Regional Office continue
                        supporting high work
                        standards and standards of
                        conduct, cross training, and
                        employee mentoring and
                        development.




                                   35th Semi Annual Report
                                         Page 25 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.                 Recommendation                   Target     Actual Date Status
Issued Date                                               Completion

Internal Review of    1. Create and provide FLRA                                   Open
Debt Collection       employees with policy/
November 2002         guidance on the use of
                      Government credit card (both
                      previous IG audit/internal
                      reviews on Simplified
                      Acquisitions and the Travel
                      Program recommended this.)
                      FLRA policy should
                      incorporate the cancellation
                      of a credit card if an
                      individual misuses the card
                      more than once.
                                                                                   Open
                      2. Require the FLRA
                      Contracting Officer and
                      Travel Manager to conduct
                      monthly reviews on
                      government credit card usage
                      by FLRA employees pursue
                      questionable items and
                      document findings. The
                      Executive Director should
                      review this documentation at
                      least semi-annually.
                                                                                   Open
                      3. Require supervisors to
                      provide employees
                      information on the use and
                      misuse of the government
                      credit card and provide more
                      oversight over employees
                      who have misused their cards.




                                35th Semi Annual Report
                                      Page 26 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.                 Recommendation                     Target     Actual Date Status
Issued Date                                                 Completion
                                                                                     Open
                      1. BFD should generate
                      transactional report for
                      General Ledger Accounts
                      #4870 and 4880 to determine
                      the nature of transactions
                      being recorded, processed         .
                      and changed that are needed
                      to properly record transaction
                      affecting these accounts.

                      2. BFD should accrue for                                       Open
                      annual invoices received and
                      not yet processed with a fiscal
                      year subsequent processing
                      date.

                      3. BFD should check                                            Open
                      Citibank invoices received
                      and not yet processed by the
                      end of the fiscal year and
                      establish dollar thresholds
                      that have not been accrued in
                      the previous invoice accrual
                      and determine if goods or
                      services have been received
                      prior to the end of the fiscal
                      year. This determination
                      should be documented.

                      4. BFD should review old,                                      Open
                      undelivered orders and de-
                      obligate them prior to fiscal
                      year end if they are no longer
                      valid.




                                 35th Semi Annual Report
                                       Page 27 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date Status
Issued Date                                             Completion

                      5. BFD should resend                                       Open
                      invoices for Federal Agency
                      receivables and have the
                      National Business Center
                      (Denver) pursue these
                      collections.

                      6. FLRA should request two                                 Open
                      copies of non-reproducible
                      reports in order to ensure
                      support documents are
                      retained. BFD should pursue
                      retaining electronic versions
                      of system generated reports.

                      7. FLRA should implement                                   Open
                      procedures to ensure that both
                      the journal entries for the
                      disposition of fixed assets and
                      correction of expenditures
                      erroneously capitalized as
                      fixed assets are performed in
                      a timely manner to ensure
                      proper statement of the
                      general ledger at the fiscal
                      year end.

                      8. Expenditures recorded to                                Open
                      fixed assets should be
                      properly reviewed prior to
                      recording to ensure each of
                      the expenditures meet the
                      definition of capitalized
                      assets.




                                 35th Semi Annual Report
                                       Page 28 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                          Target     Actual Date Status
Issued Date                                                 Completion
                      The Administrative Services                                    Open
                      Division should review 9.
                      Copiers and other office
                      automation centrally and the
                      number of vendors should be
                      minimized to obtain
                      economic purchases and
                      efficiencies in maintenance
                      and operation.

                      10. FLRA should identify                                       Open
                      furniture on a replacement
                      cycle with the Agency’s
                      Central Services Fund to
                      provide a systematic method
                      for budgeting for and
                      replacing furniture.

                      11. BFD should implement                                       Open
                      the use of electronic
                      spreadsheets as a standard for
                      accounting documentation to
                      allow for easy documentation
                      of explanatory notes and
                      imputing changes.

                      12. FLRA should include an                                     Open
                      amount in the accrued FECA
                      liability for the estimated
                      fourth quarter FECA claim
                      costs.

                      13. FLRA should record                                         Open
                      liability for future workers’
                      compensation.




                                  35th Semi Annual Report
                                        Page 29 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                 Target       Actual Date Status
Issued Date                                          Completion
                      14. The FLRA should pursue                              Open
                      the filling of the BFD
                      Accounting Officer position.
                                                     .
                      15. The FLRA should                                     Open
                      enhance the Accounting
                      Manual with the detail of
                      specific procedures for the
                      department staff.

                      16. FLRA should develop                                 Open
                      written budget information
                      and execution policy that
                      outlines the process, states
                      procedures utilized and
                      clarify FLRA approaches and
                      methodology.

                      17. Significant changes or                              Open
                      direction from the initial
                      budget submission should be
                      communicated to cost center
                      managers in a timely manner.

                      18. FLRA components and                                 Open
                      subcomponents should
                      develop data to support
                      effective and justifiable
                      resource allocations.

                      19. The FLRA should                                     Open
                      consider separating the
                      information Technology
                      budget from the Agency
                      Central Services Fund and
                      place it under the
                      responsibility of the Chief
                      Information Officer.



                                 35th Semi Annual Report
                                       Page 30 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date Status
Issued Date                                            Completion
Executive Summary     1. FLRA Authority                                         Open
FLRA Case             Members/Chief Counsels
Processing            should develop standard
                      policy and timeliness for case
                      processing, including the
                      average length of time the
                      case should be at various
                      stages of its process.
                      2. The FLRA Chief Counsels                                Open
                      need to work with the
                      Director, Case Control Office
                      to expand the current system
                      and establish a complete and
                      interactive automated Case
                      Tracking System.
                      3. FLRA Authority Members                                 Open
                      should standardize their case
                      processes, internal goals,
                      internal controls and
                      performance standards for all
                      of their employees.
                      4. FLRA Authority Members                                 Open
                      should create a standard case
                      processing policy (or manual)
                      to ensure that current and new
                      employees perform their
                      duties appropriately.
                      5. The Screening Committee                                Open
                      should be required to provide
                      more merit review and legal
                      issue information on the cases
                      they review.




                                 35th Semi Annual Report
                                       Page 31 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
                      6. The Authority cases                                     Open
                      should be reviewed
                      thoroughly by each Chief
                      Counsel
                      7. Input from the Members at                               Open
                      the time of case assignment
                      and more interaction among
                      the Members and their senior
                      staff would eliminate
                      repetition.
                      8. The Authority should                                    Open
                      consolidate the issuance of
                      the Issue Memorandum for
                      non-complex cases and
                      implement a Member/Chief
                      Counsel Meeting.
                      9. The Director, Case                                      Open
                      Control Office, Members’
                      Senior Chief Counsels should
                      once again with the Chief
                      Information Officer and
                      Director, Information
                      Resources Management to
                      improve the current case
                      tracking system to support
                      Authority Member Office
                      case tracking process.
                      10. Add an additional FTE to                               Open
                      the Collaborative Alternative
                      Dispute Resolution Office to
                      enable the Authority process
                      of resolution to expand.




                                35th Semi Annual Report
                                      Page 32 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
                      11. The Authority should                                    Open
                      plan a training conference for
                      Federal agency

Follow-up on FY       1. Human Resources                                          Open
2000 FLRA IG          Division should prepare a
Review of FLRA’s      work plan specifically related
Human Capital         to the FY 2000 Findings and
                      Recommendations.
                      2. Establish an integrated                                  Open
                      senior leadership/
                      management team to address
                      human capital issues and
                      provide justified
                      recommendations to the
                      Chairman.
                      3. Reinstate monthly                                        Open
                      management meetings during
                      which current management
                      issues are discussed and each
                      manager is required to brief
                      all managers on major
                      activities.
                      4. FLRA components should                                   Open
                      be briefed on behavior and
                      communication interactions
                      and communication
                      interactions and engage in
                      personality testing. (Myers
                      Briggs Type indicator and/or
                      Strong Interest Inventory).
                      This could be done in-house
                      or at an offsite meeting.




                                 35th Semi Annual Report
                                       Page 33 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
                      5. The Agency needs to                                       Open
                      compile more human capital
                      statistics to make proper
                      human capital decisions. The
                      following data should be
                      considered to be collected by
                      HRD:

                      --workforce data,
                      --skills inventory,
                      --dates and dispersal of
                         performance appraisal,
                      --yearly vacancies and time
                         time period required to fill
                         them,
                      --yearly data on number and
                         cost of bonuses, awards and
                         other incentives,
                      --yearly statistics on griev-
                        ances,
                      --EEO complaints and costs
                      in dollars,
                      --costs of promotions and
                         within grade increases,
                         and amount per employee
                         spent for training and its
                         percentage of the operating
                         budget.
                      6. Update the FLRA                                           Open
                      Strategic Plan and have
                      management revise
                      component action plans and
                      employee work and
                      performance plans with focus
                      on agency-wide results.




                                 35th Semi Annual Report
                                       Page 34 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
                      7. The Chairman, FLRA                                      Open
                      should appoint a Human
                      Capital Officer and/or Senior
                      Management Committee who
                      should address Agency-wide
                      human capital issues and
                      work with the Director, HRD
                      to ensure agency-wide
                      compliance with the
                      President’s Management
                      Agenda’s human capital
                      standards.
                      8. FLRA/HRD should                                         Open
                      perform an Agency-wide
                      employee skills inventory. It
                      definitely would provide a
                      baseline for skill needs,
                      employee training and future
                      hiring.
                      9. All FLRA supervisors                                    Open
                      should be required to provide
                      employees with work plans
                      and individual development
                      plans.
                                                                                 Open
Internal Review of    1. Add contemporary safety,
FLRA’s                health, and security
Occupational Safety   information including the
& Health Issued       Emergency Plan and a current
August 2003           list of FLRA policy to the
                      website as well as the
                      Orientation Package given to
                      new employees.




                                 35th Semi Annual Report
                                       Page 35 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                      Target       Actual Date   Status
Issued Date                                               Completion
                      2. Increase Agency-wide                                        Open
                      training for FLRA safety and
                      health programs. Ensure that
                      all supervisors are
                      knowledge, aware of OSHA
                      requirements and provide
                      contemporary information to
                      their staffs. Include volunteer
                      training to CPR and increase
                      safety evacuation information
                      to include maps of areas,
                      where to ensure employee
                      safety.
                      3. FLRA/HRD should ensure                                      Open
                      that all OSHA statistics and
                      records be maintained so that
                      the FLRA is in compliance
                      with the OSHA requirements.
                      4. FLRA/HRD should                                             Open
                      expand its definition of
                      sensitive positions to, at least,
                      include Security Officers,
                      Computer Information
                      Officers and both senior and
                      line managers and comply
                      within its Drug Free
                      Workplace Plan by randomly
                      testing at least one person per
                      year.
                      5. The FLRA Executive                                          Open
                      Director and Director
                      Administrative Services
                      Division should review the
                      Interagency Agreements with
                      the Department of Health and
                      Human Services and ensure
                      that all stated provisions are
                      current and addressed.


                                  35th Semi Annual Report
                                        Page 36 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                     Target       Actual Date   Status
Issued Date                                              Completion
                      6. The FLRA Safety                                            Open
                      Program Manager should
                      ensure that all FLRA sub
                      components maintain
                      standardized sufficient and
                      accessible safety/protective
                      equipment.
                      7. FLRA management should                                     Open
                      prioritize the development of
                      an FLRA Continuity of
                      Operations (Contingency)
                      Plan.
                      8. Annual FLRA facility                                       Open
                      (Headquarters and Regional
                      Offices) safety checks should
                      be performed by the building
                      Security Officer or FLRA
                      Security Officer, and
                      maintained/documented and
                      followed up by ASD’s
                      Security Officer.

Internal Review of    1. Management should                            6/21/06       Closed
FLRA’s                consider eliminating
Government            government lease vehicles
Vehicles              from the three subject offices
August 2003           at the end of FY 2004. The
                      subject Regional Office travel
                      budgets should retain money
                      and use it for rental vehicles
                      when driving is necessary
                      and/or other modes or public
                      transportation or air travel. If
                      there are future changes,
                      which increase these offices




                                  35th Semi Annual Report
                                        Page 37 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006
Report No.              Recommendation                   Target       Actual Date   Status
Issued Date                                              Completion
                        caseload significantly in the
                        future and management can
                        support the need of a
                        government vehicle, it could
                        be reinstate.
                        2. Because of the significant                               Open
                        amount of travel by some
                        agency component and
                        subcomponent employees,
                        appropriate agency internal
                        travel policy and statistics
                        need to be defined and
                        maintained by all three
                        components of the Agency to
                        properly assess travel costs
                        and budget travel allocations.
                        3. FLRA Budget and Finance                                  Open
                        Division Director should
                        semiannually monitor travel
                        transportation mileage logs
                        and related costs, travel safety
                        and security incidents and
                        other related expenditures
                        cost and provided internal
                        semi-annual reports to the
                        Chairman, FLRA, Counsel,
                        Chairman of FSIP, and
                        Director of Administrative
                        Law Judges.

                       1. Director of Administrative                                Open
                       Services Division should:
                             (a) Work with building
                       owners and maintenance
                       personnel to ensure that
                       parking garage exterior doors
                       remained locked and secured.
                             (b) Install door locks on
                       all interior doors.

                                  35th Semi Annual Report
                                        Page 38 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.              Recommendation                   Target       Actual Date   Status
Issued Date                                              Completion
Office of the General   1. The FLRA should maintain                   6/21/06       Closed
Counsel Internal        the remote duty locations
Review of Remote        until the Department of
Duty Locations          Defense labor management
March 2004              cases are removed from the
                        FLRA. Statistics on
                        Department of Homeland
                        Security should be
                        maintained for at least a year
                        after the Department of
                        Defense, Department of
                        Homeland Security labor
                        policies have been
                        implemented. At that time,
                        based on a verifiable reduced
                        caseload, the FLRA should
                        eliminate the remote duty
                        locations and determine the
                        need of the employees in their
                        former remote site location
                        based on caseload and either
                        transfer them to their
                        Regional Offices or support
                        telecommunicating at home
                        by these specific employees
                        in accordance with agency
                        policy.

                        2. The FLRA should comply                                   Open
                        with Public Law 106346 and
                        create policy for employees
                        who are or will volunteer to
                        work full-time at home prior
                        to making a decision to
                        eliminate their remote duty
                        stations.




                                   35th Semi Annual Report
                                         Page 39 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.             Recommendation                    Target       Actual Date   Status
Issued Date                                              Completion
Contracting            1. FLRA management should                                    Open
Investigation Report   focus on creating and/or
August - 2004          updating policy for their
                       procurement operations and
                       providing this policy to
                       contracting employees so that
                       the subject employees are
                       properly informed of
                       changes. Contract file
                       information should be
                       standardized and submitted
                       proposals with documented
                       evaluations. Task order
                       written by FLRA managers
                       should include evaluation
                       criteria by which contractors
                       will be evaluated.

                       2. The FLRA Contracting                                      Open
                       Officer needs to understand
                       that, in spite of his authority
                       and independence to handle
                       claims and make final
                       decisions, FLRA
                       management should be
                       informed of contract related
                       problems and claims that
                       have been filed against the
                       Agency prior to processing,
                       especially when the
                       alternative dispute resolution
                       process is to be used.

                       3. FLRA management should                                    Open
                       focus more on human capital
                       and customer orient
                       relationships. Also, FLRA




                                   35th Semi Annual Report
                                         Page 40 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
                      management should be aware
                      of and support appropriate
                      alternative dispute resolution
                      for claims as they do for
                      unfair labor practice charges
                      and arbitration cases, which
                      provide greater satisfaction to
                      the filing party, innovative
                      methods of resolving disputes
                      and greater efficiency in
                      achieving settlements.

                      4. FLRA management should                                    Open
                      ensure that senior appointed
                      managers have knowledge
                      and/or are provided with
                      necessary training in the
                      program they are responsible
                      for managing.
FY 2004 Audit of      1. FLRA CIO develop and                                      Open
FLRA Security         maintain:
Programs
September 30, 2004         (a) A visitor log that all
                      data center visitors are
                      required to sign upon arrive
                      and departure.
                           (b) An emergency
                      contact line list.

                           (c) ASD develop
                      effective policies for
                      managing Kastle Keys and
                      direct ASD security personnel
                      to implement procedures in
                      accord with the policies
                      adopted.




                                  35th Semi Annual Report
                                        Page 41 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
                      2. FLRA CIO should:                                         Open

                          (a) Fully develop
                      disaster recovery, IT
                      contingency business
                      continuity, and continuity of
                      operations plans.

                           (b) Provide training to
                      enable personnel to
                      effectively implement all
                      plans and require periodic
                      retraining.

                           (c) After each plan is
                      implemented, conduct and
                      document testing to ensure
                      that each plan is responsive,
                      and periodically reevaluate
                      plans and keep plans current.
                                                                                  Open
                      4. FLRA CIO should
                      Perform a C&A review in
                      accordance with NIST
                      standards and authorizes the
                      general support system for
                      processing.

                      5. FLRA should ensure that a                                Open
                      management official
                      authorizes in writing the use
                      of each general support
                      system based on an
                      acceptance of risks identified
                      with the system certification
                      process as described by
                      NIST.




                                 35th Semi Annual Report
                                       Page 42 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
                                                                                 Open
                      6. FLRA should ensure that
                      staff members adhere to a
                      documented policies and
                      procedures for performing
                      backups of networks file and
                      mail servers.
                                                                                 Open
                      7. FLRA CIO should:

                          (a) Develop a program to
                      provide annual security
                      awareness training to all
                      FLRA employees in
                      accordance with OMB
                      requirements.
                          (b) Develop proper
                      procedures to accurately
                      assess and report on the
                      program’s level of attendance
                      and effectiveness.

                      8. FLRA CIO should                                         Open
                      develop a complete Security
                      Program Plan, arrange for
                      appropriate personnel to
                      review it, revise the plan
                      accordingly and obtain
                      approval cognizant executive
                      management.

                      9. FLRA CIO should                                         Open
                      develop, document and
                      implement an incident
                      response plan consistent with
                      NIST and OMB criteria.




                                 35th Semi Annual Report
                                       Page 43 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
                      10. FLRA should:                                            Open

                           (a) Take immediate
                      action ensure timely
                      development and
                      implementation of policies
                      and procedures necessary to
                      establish ad support FLRA’s
                      information security program.
                           (b) Develop and
                      implement policies and
                      procedures to track evaluate,
                      and monitor FLRA’s
                      information and information
                      systems security program in
                      accordance with OMB
                      Circular A-130, Appendix III
                      and ensure proper and timely
                      reporting to OMB and
                      Congress.

                      11. FLRA CIO should:                                        Open

                           (a) Develop policies and
                      procedures requiring that
                      patches be properly tested in
                      a test environment before
                      being placed into production.
                           (b) Develop a test lab to
                      adequately test patches.
                           (c) Provide training to
                      individuals to ensure that
                      multiple personnel can
                      perform critical functions and
                      activities can be performed
                      by multiple personal.




                                 35th Semi Annual Report
                                       Page 44 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
                      12. FLRA CIO should:                                         Open

                           (a) Develop and
                      implement a formal SDLC
                      methodology based on NIST
                      guidance and ensure the
                      policy at a minimum
                      addresses the following
                      elements:
                            - Sensitivity of data to
                      be processed in the system.
                            - Resources required
                      for adequately securing the
                      system.
                            - Input from the
                      equivalent of an Investment
                      Review Board.
                            - Authorization for
                      software modification
                      documentation and
                      maintenance.
                            - Budget request to
                      include security resources for
                      the system.
                            - Security controls
                      consistent with and integral to
                      senior management’s
                      standards.
                            - Security require-
                      ments to be included in
                      solicitation documentation.




                                 35th Semi Annual Report
                                       Page 45 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
                            - Develop and
                      implement a formal change
                      control policy outlining the
                      procedures needed to ensure
                      that system configuration
                      changes are properly
                      documented, authorized,
                      approved, and tested before
                      being moved into production
                      or implemented.

                      13. FLRA Management                                        Open
                      should: suspend access or
                      implement adequate
                      procedures to mitigate risks
                      associated with CIO’s access
                      privileges to the network
                      domain servers and local
                      account passwords and follow
                      through with the Windows
                      2000 migration and rollout
                      initiatives to ensue that
                      current passwords that have
                      been compromised due to the
                      departure of the network
                      manager do not continue to
                      present the Agency with a
                      major security risk.
                                                                                 Open
                      14. FLRA CIO should:

                           (a) Develop policies and
                      procedures requiring periodic
                      review of user access
                      controlled.




                                 35th Semi Annual Report
                                       Page 46 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
                           (b) Analyze generic
                      accounts currently active on
                      the network operating
                      system to ensure that they
                      are appropriate and that
                      account access are
                      controlled and monitored.

                      1. Management needs to                                      Open
                      focus on information
                      technology to improve
                      FLRA information
                      technology systems.
                      Management should review
                      previous IG Reports, which
                      contain information security
                      findings and
                      recommendations.

                      2. FLRA should obtain the                                   Open
                      proper testing material and
                      scan all FLRA
                      laptops/computers
                      throughout the Agency to
                      see if they contain improper
                      websites.

                           (c) Management should
2005-I-04 Access of   reinstate technology as an
Improper Websites     integral part of its strategic
                      plan.

                      4. Management should                                        Open
                      reinstate its sub component
                      Technology Committee
                      which could provide mission
                      related problems and
                      requirements to the FLRA
                      CIO.

                                 35th Semi Annual Report
                                       Page 47 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                Target       Actual Date   Status
Issued Date                                         Completion
2005 Financial        1. Executive management                                  Open
Statement             should start the agency
Recommendations       towards FISMA compliance
                      by providing support for
                      correcting the out-of-
                      compliance situation. This
                      support should consist of
                      memoranda, policy and
                      documented directions, but
                      also of financial and
                      budgetary resource
                      allocation for the goods,
                      services, and personnel
                      needs of the agency to
                      correct the situation. This
                      support, along with the
                      undertaking of corrective
                      actions by the Chief
                      information Officer and
                      other FLRA Staff, should be
                      focused on implementing
                      the recommendation is
                      provided to the FLRA from
                      the fiscal year 2004 FISMA
                      Audit Report.

                      2. Executive management                                  Open
                      should establish who is to
                      perform Chief Financial
                      Officer duties and
                      responsibilities for the
                      agency. This individual
                      should have the appropriate
                      knowledge and skills needed
                      for fulfilling all the
                      necessary duties and
                      responsibilities.


                                35th Semi Annual Report
                                      Page 48 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
                      3. Executive management                                     Open
                      should agency policies and
                      procedures are kept current
                      and in accordance with
                      existing laws and regulations.
                      This assurance would entail
                      monitoring existing policies
                      and procedures and
                      identifying those that are in
                      need of revision. For those
                      policies and procedures
                      submitted by agency directors
                      concerning changes needed
                      for adoption of the policy or
                      procedure by the agency.

                      4. FLRA should insure                                       Open
                      continuity of its operations
                      through having better support
                      providers and their services.

                      This support could be
                      provided in many different
                      ways, including obtaining
                      external system support
                      providers and their services.

                      As an interim measure, other
                      FLRA employees are given
                      the appropriate training and
                      guidance to establish
                      adequate support for the
                      continued functions. This
                      would ensure that there is a




                                 35th Semi Annual Report
                                       Page 49 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
                      sufficient “backup knowledge
                      base” in other employees in
                      the event of a loss of a single
                      critical employee.

                      5. FLRA should determine                                     Open
                      the best system source for its
                      overall accounting, budgetary
                      , and financial need on a
                      going forward basis. This
                      may involve determining
                      other options available from
                      the U.S. Department of the
                      Interior as well as alternative
                      private sector or
                      governmental sources that
                      can efficiently meet FLRA’s
                      needs.

                      6. Detailed fixed assets                                     Open
                      records should be maintained
                      and reconciled to the general
                      ledger on a timely basis to
                      ensure accurate accounting
                      for assets. These records
                      should be timely and
                      appropriate updated each
                      period for asset additions and
                      subtractions resulting from
                      acquisitions, trade, disposals,
                      etc.




                                 35th Semi Annual Report
                                       Page 50 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                     Target       Actual Date   Status
Issued Date                                              Completion
                      7. Management should                                          Open
                      address cash disbursement
                      procedures, accounts payable
                      procedures and internal
                      controls in its development of
                      an improved system of fiscal
                      and accounting management.
                      The process of accounts
                      payable should be core
                      function that is contained
                      within the accounting system.

                      8. The Executive Director
                      should examine the                                            Open
                      procurement process between
                      the Divisions of Budget and
                      Finance and Administrative
                      Services and ensure the
                      proper policies and
                      procedures are in place to
                      provide that FLRA
                      obligations are recorded into
                      the agency accounting
                      records into the agency
                      accounting records in an
                      accurate and timely manner.

                      In addition, the Executive
                      Director should ensure that
                      the policies and procedures
                      include adequate internal
                      control and monitoring

                      9. Information needed for                                     Open
                      each quarter closed should
                      include all necessary updated
                      information for fair statement
                      of the financial position of the
                      FLRA.

                                  35th Semi Annual Report
                                        Page 51 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
                      10. The process of updating                                 Open
                      the ability of accrued leave
                      should be conducted quarterly
                      in time for the fiscal quarter
                      accounting closed. This
                      updating should ensure fair
                      statement of the accrual by
                      obtaining accurate and
                      reliable data needed to
                      determine the accrual.

                      11. The process of updating                                 Open
                      the liabilities of accrued
                      FECA and Future Workers
                      Compensation should be
                      conducted quarterly in time
                      for the fiscal quarter
                      accounting closed. This
                      updating should ensure fair
                      statement of the accrual by
                      obtaining accurate and
                      reliable data needed to
                      determine the accrual.

                      12. Formal collection                                       Open
                      procedures should be
                      establish that included:
                           (a) The formal periodic
                      review of the account
                      receivable aged trial balance;
                           (b) The implementation
                      of procedures for contacting
                      delinquent accounts for
                      payment, such as sending
                      letters;




                                 35th Semi Annual Report
                                       Page 52 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                     Target       Actual Date   Status
Issued Date                                              Completion
                           (c) The formal periodic
                      review of the account
                      receivable aged trial balance;
                           (d) The implementation
                      of procedures for contacting
                      delinquent accounts for
                      payment, such as sending
                      letters;
                           (e) A quarterly
                      assessment concerning the
                      collectibles of the
                      receivables; and
                           (f) The determination of
                      allowance for doubtful
                      accounts.

                      13. The FLRA should ensure                                    Open
                      that the PAR is delivered by
                      the regulatory die date.

                      14. Lease agreements should                                   Open
                      be reviewed for existing
                      occupied and used spaces and
                      ensure each lease is accurate
                      and complete. Any omissions
                      should be addressed and
                      followed up with appropriate
                      written requests to the lesser.

                      15. In conjunction with the                                   Open
                      back up of key accounting
                      positions, procedures are
                      established for a review of
                      manual adjusting journal
                      entries prior to entering to the
                      system.




                                  35th Semi Annual Report
                                        Page 53 of 63
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
                      16. FLRA should address                                      Open
                      whether alternative summary
                      level information can be
                      posted to the general ledger
                      for the payroll interface. With
                      summary information by
                      department, the general
                      ledger would be greatly
                      improved as a monitoring and
                      analysis tool for management.




                                 35th Semi Annual Report
                                       Page 54 of 63
Other Activities:
Administrative Work

During this reporting period, the FLRA Office of Inspector General continued to update
files and updated/revised all FLRA Inspector General instructions most of which were
created in 1998-1999.

FLRA Security Incidents

The FLRA had no security incidents occur during this reporting period.

Investigation Activity

During this reporting period, the FLRA Inspector general conducted one administrative
investigation based on a complaint by an FLRA employee and responded to one
Congressional staff member request regarding information related to an unfair labor
practice case, which had not been issued by the Office of General Council.




                                35th Semi Annual Report
                                      Page 55 of 63
INVESTIGATION LOG

During this reporting period, the FLRA Inspector General completed one investigation


                     FEDERAL LABOR RELATIONS AUTHORITY
                          Office of the Inspector General
                            FY 2006 Investigation Log

2005-I-09       FLRA employee alleges job      8-8-05          Closed
                misconduct, harassment and                     October 28, 2005
                threats by another employee.




                                 35th Semi Annual Report
                                       Page 56 of 63
HOTLINE CALLS

During this reporting period, the FLRA Inspector General processed 9 Hotline calls.


                      FEDERAL LABOR RELATIONS AUTHORITY
                           Office of the Inspector General
                                FY 2006 Hotline Log

Case No.                  Subject                Dated                    Status
                                                Received
2006-H-01       Postal Service Employee     October 3, 2005      Closed - Referred to
                stated that the Union refused                    U.S. Postal Service
                to handle her situation                          Inspector General
                regarding management not                         October 3, -2005
                accepting her medical care
                issued by her doctor three
                years ago.
2006-H-02       Employee from private         October 20,2006    Closed – Referred to
                company (ANR                                     Department of Labor
                Engineering) Rockville, MD                       Inspector General
                co-signed for a Motorcycle                       October 20, 2005
                Bike with his Employer.
                The Employer sold the Bike
                because of financial
                problems but did not get the
                price value. The
                complainant approached the
                Employer inquiring about
                the balance. The Employer
                fired the complaint.
2006-H-03       Private sector employee       October 31, 2005   Closed - Referred to the
                requested information                            Department of Labor
                regarding tribal school                          October 31, 2005
                cooperation.
2006-H-04       Union member of               November 4, 2005   Closed: - FLRA IG
                Department of Navy alleges                       referred to Dept of the
                Atlanta Regional Director                        Navy IG
                made an improper decision                        November 4, 2005
                related to the Union’s
                Representation Case.




                                35th Semi Annual Report
                                      Page 57 of 63
                  FEDERAL LABOR RELATIONS AUTHORITY
                       Office of the Inspector General
                            FY 2006 Hotline Log

Case No.              Subject                  Dated                     Status
                                             Received
2006-H-05   FLRA employee alleged that November 7, 2005         FLRA IG discussed the
            his supervisor was acting                           matter with the
            very nasty to him, yelled at                        supervisor in an attempt
            him during conversations                            to resolve the issue.
            with him rather than                                Closed: November 8, 06.
            speaking professionally and
            was documenting all
            interactions with him.
2006-H-06   Department of Air Force       November 8, 2005      Referred to the FLRA
            employee alleged he was                             Denver Regional Office
            fired because he created and                        for consultation
            sent a letter to Congress. He                       regarding his request for
            currently has filed a                               information.
            complaint with the Merit                            Closed: November 8, 05.
            Systems Protection Board
            and wanted to know if he
            could file a charge with the
            FLRA.
2006-H-07   FLRA employee concerned January 11, 2006            Referred employee to
            that office manager refused                         FLRA Supervisor and
            to deliver her pay slip mail,                       advised the employee to
            which is addressed, to the                          contact the Inspector
            Agency.                                             General if the issue was
                                                                not resolved.
                                                                Closed: January 11, 06.
2006-H-08   FLRA employee stated that       February 22, 2006   Referred employee to
            a Senior FLRA manager                               FLRA Supervisor and
            spoke to her in a yelling and                       advised the employee to
            nasty manner and hung up                            contact the Inspector
            on her phone call.                                  general if the issue was
                                                                not resolved.
                                                                Closed: February 22, 06.
2006-H-09   FLRA Employee stated that       March 23, 2006      Referred employee to
            she has been assigned 3                             discuss the issue with
            jobs, two of which were                             the FLRA Executive
            assigned to previous                                Director/Director of
            employees, (one was                                 Human Resources and to
            transferred to another job                          contact the Inspector if
            and one retired. The                                the issue was not
            employee stated that no                             resolved.
                                                                Closed: March 23, 06.
                              35th Semi Annual Report
                                    Page 58 of 63
                  FEDERAL LABOR RELATIONS AUTHORITY
                       Office of the Inspector General
                            FY 2006 Hotline Log

Case No.              Subject                 Dated      Status
                                             Received
2006-H-09   update has been provided to
Continued   her position description even
            though one of her new jobs
            are 4 levels above her
            current level and her
            Supervisor did not give any
            definitive answer during
            their discussion about this
            issue.




                             35th Semi Annual Report
                                   Page 59 of 63
                                               TABLE I

            INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS
                                           NUMBER OF REPORTS       DOLLAR VALUE
 A. For which no management decision has
                                                      18
 been made by the commencement of the
                                           2005 Corrective Actions
 reporting period.
                                                       1
 B. Which were issued during the reporting   Financial Statement        0
 period.                                            Audit
                                                       1
 C. For which a management decision was      Information Security
 made during the reporting period.                  Audit

         (i) Dollar value of disallowed costs.                 0         0

         (ii) Dollar value of costs not             The Chairman must    0
         disallowed.                                approve all budget
                                                      expenditures.

 D. For which no management decision has               18 previous
                                                                         0
 been made by the end of the reporting               2004 Financial
 period.                                             Statement Audit

                                             TABLE II

INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE
PUT TO BETTER USE
                                        NUMBER OF REPORTS       DOLLAR VALUE
A. For which no management decision has Reviewed as part of the
been made by the commencement of the      FY 2005 Financial          0
reporting period.                          Statement Audit

B. Which were issued during the reporting                   1
period.                                            Financial Statement
                                                          Audit

C. For which a management decision was            No response provided
made during the reporting period.
        (i) Dollar value of recommendations
        that were agreed to by                    No response provided
        management.
        (ii) Dollar value of costs that were
                                                  No response provided   0
        not agreed to by management.
                                                          1
D. For which no management decision has
                                                    2005 Financial
been made by the end of the reporting
                                                    Statement Audit
period.


                                     35th Semi Annual Report
                                           Page 60 of 63
                      FEDERAL LABOR RELATIONS AUTHORITY
                            Office of the Inspector General
                            Oversight Activities Summary
                           October 1, 2005 –March 31, 2005
SUBJECT                                                                     STATUS
Audit of FLRA Financial Statements                                         Completed
OPM Audit of FLRA's Human Resources and Delegated Examining                 Awaiting
Operations                                                               release of final
                                                                             report.
                                                                           In Process
Internal Review of FLRA Administrative Policy
Administrative Investigations

                                                                           Completed
2005-I-09

                     FEDERAL LABOR RELATIONS AUTHORITY
                           Office of the Inspector General
                        CORRECTIVE ACTION SUMMARY
                         October 1, 2005 – March 31, 2006
New Corrective Actions                                                          5

Open Corrective Actions Carried Over                                          138

Total Actions Closed This Period (2 Corrective Actions by CIO awaiting
                                                                                    3
Management approval.)


Total to be Carried Over                                                      135




                                35th Semi Annual Report
                                      Page 61 of 63
Definitions

Actions

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is necessary.

Funds Be Put To Better Use

The amount of savings estimated by the Inspector General that could be obtained by
implementing report recommendations relating to more efficiency and effectiveness of
programs and operations.

Management Decision

A final decision made by management in response to audit report recommendations
that may include actions concluded to be necessary or a determination that no action is
necessary.

Management Letter

This document brings to the attention of management any of a broad range of issues
and subjects which should be addressed by management, but do not require formal
audit or investigation. Management letters are generally unplanned and are issued to
report on situations found in conjunction with an on-going or completed audit or
investigation. These letters may also be used to expand on previously issued audit
report recommendations.

Questioned Costs

Expenditures questioned by the Inspector General are usually due to the following:

Unsupported costs, which involve inadequate documentation; Disallowed costs, which
involve an alleged violation concurred with by Managements Decision of a law,
regulation, grant, contract, or another agreement; or unnecessary costs which involve
unnecessary or wasteful spending.




                                35th Semi Annual Report
                                      Page 62 of 63
REPORT FRAUD, WASTE, ABUSE, AND MISMANAGEMENT

                          TO

    THE FEDERAL LABOR RELATIONS AUTHORITY

       OFFICE OF THE INSPECTOR GENERAL

                     HOTLINE

          1-800-331-3572 (24 hr. service)

                  202-218-7744

                     or write to

                        FLRA

            Office of Inspector General

                1400 K Street, NW

                     Suite 250

             Washington, D.C. 20424




                 35th Semi Annual Report
                       Page 63 of 63
